HHS/OIG-Audit--"Audit of Beneficiary Hospice Eligibility at Samaritan Care, Inc., Lansing, Illinois, (A-05-96-00024)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Beneficiary Hospice Eligibility at Samaritan Care, Inc., Lansing,
Illinois," (A-05-96-00024)
February 26, 1998
Complete Text of Report is available in PDF format
(817 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that of 224 beneficiaries who had been in
hospice care at Samaritan Care, Inc. for more than 210 days, 213 beneficiaries
were not eligible for hospice coverage. As a result, Medicare overpayments to
Samaritan for these beneficiaries amounted to more than $10.4 million. The beneficiaries
were ineligible because medical determinations, made by physicians under contract
to the Illinois Medicare peer review organization found the medical evidence
in the files showed that the beneficiaries did not have terminal conditions
resulting in life expectancies of 6 months of less. Because of pending criminal
and civil actions against the previous owner of Samaritan, we are not making
a recommendation for the Health Care Financing Administration to independently
recoup the $10.4 million in identified overpayments. We are, however, recommending
improved controls to help preclude abusive practices.